Supreme Court, U.S.
FILED

SEP 2 8 2020
OFFICE OF THE CLERK

No. 20-

1)17

IN THE

Supreme Court of the United States
PHILIP JAY FETNER,
Petitioner,
v.
HOTEL STREET CAPITAL, LLC, et al.,
Respondents.

On Petition for Writ of Certiorari
to The United States Court of Appeals
for the Fourth Circuit

PETITION FOR WRIT OF CERTIORARI

September 28, 2020

Philip Jay Fetner, Pro Se
8080 Enon Church Road
The Plains, Virginia 20198
(540) 222-9693
pjayfetner@aol.com

LEGAL Printers LLC • Washington, DC • 202-747-2400 • legalprinters.com

(i)
QUESTIONS PRESENTED
Petitioner asks this Court to review two
questions arising from closely related orders issued by
the Fourth Circuit Court of Appeals in two
bankruptcy appeals taken in the same case. The
orders are sufficiently related because the first
question below arose in an appeal from the denial of
an exclusivity extension but the Court of Appeals sua
sponte invoked the equitable mootness doctrine to
dismiss the appeal. The conversion of Petitioner’s
original Chapter 11 petition to Chapter 7 status was
the event that triggered the invocation of the
equitable mootness doctrine. The appeal of the
conversion itself is the subject of the second question
concerning the timing of the conversion order and
so-called “jurisdictional” deadlines for appeal.
1. Should the Fourth Circuit Court of Appeals’
invocation of equitable mootness foreclosing
Petitioner’s appeal of the Bankruptcy Court’s
denial of an exclusivity extension be set aside
as unconstitutional or, alternatively, should
the doctrine be refined to provide a more
appropriate standard. In either event, the
judgment would be reversed, and the case
remanded to the Court of Appeals.
2. Should the Court of Appeals apply equitable
considerations — not to jurisdictional matters
but to confusion actually caused by the
Bankruptcy Court in determining which of two

(ii)
possible orders was the proper appealable
order - to preserve Debtor’s unquestionable
and important constitutional right to appeal
his conversion from Chapter 11 to Chapter 7
upon remand.
Both questions involve issues of constitutional
mandates, this Court’s ultimate supervisory role in
bankruptcy matters, and possibly the importance of
adhering to a consistent national legal standard to
avoid (existing) conflicts among the different federal
courts. The importance of these matters will be
argued further by Petitioner in this brief.

(iii)
PARTIES TO THE PROCEEDING IN THIS
COURT AND RULE 29.6 STATEMENT
HOTEL STREET CAPITAL, LLC.
c/o Robert M. Marino, Esq.
REDMON, PEYTON & BRASWELL
510 King Street, Suite 301
Alexandria, Virginia 22314
BANK OF AMERICA/WILMINGTON
FUND SOCIETY
c/o Andrew Justin Narod, Esq.
BRADLEY ARANT BOULT
CUMMINGS, LLP.
1615 L. Street, N.W., Suite 1350
Washington, D.C. 20036

SAVINGS

IRS
c/o Robert K. Coulter, Esq.
UNITED STATES ATTORNEYS OFFICE
2100 Jamieson Avenue
Alexandria, Virginia 22314
STEPHEN S. ROSZEL VII, PER BANG-JENSEN,
EXECUTORS, SUSAN ROSZEL HARTZ
c/o William D. Ashwell, Esq.
MARK B. WILLIAMS & ASSOCIATES, PLC.
27 Culpeper Street
Warrenton, Virginia 20186
Creditors-Appellees

(iv)
(Cont.)
UNITED STATES TRUSTEE
c/o Jack Ira Frankel, Esq.
OFFICE OF THE U.S. TRUSTEE
115 South Union Street
Alexandria, Virginia 22314
Trustee-Appellee
Petitioner is PHILIP JAY FETNER
Debtor-Appellant
Respondents are indicated above. Petitioner is not a
corporation.

(v)
TABLE OF CONTENTS
QUESTIONS PRESENTED

1

PARTIES TO THE PROCEEDING IN THIS COURT
AND RULE 29.6 STATEMENT
m
TABLE OF CONTENTS
TABLE OF AUTHORITIES

v
Vll

JURISDICTION

1

OPINIONS BELOW

1

CONSITUTIONAL AND STATUTORY
PROVISIONS INVOLVED ..................

1

INTRODUCTION

1

STATEMENT OF THE CASE

3

REASONS TO GRANT THE PETITION
I.

II.

The Time Has Come To Declare the
Equitable Mootness Doctrine
Unconstitutional..............................

10

10

Alternatively, the Equitable Mootness
Doctrine Must Be Made Uniform and
Reformed To Satisfy Its Purposes Under the
Code
15

(vi)
III.

Notwithstanding the Integrity of Statutory
Jurisdiction, the Lower Court Failed To
Apply the Relevant Equitable Principles To
Allow the Court To Hear the Merits of the
17
Case

CONCLUSION

20

APPENDIX A
Appeal 19-2519

la

Order (Denial of Rehearing), U.S. Court of
Appeals for the Fourth Circuit,
June 29, 2020.................................................... 4a
Judgment, Opinion, U.S. Court of Appeals
for the Fourth Circuit, April 20, 2020......... 6a
APPENDIX B
Appeal 19-2303

10a

Order (Denial of Rehearing), U.S. Court of
Appeals for the Fourth Circuit,
June 29, 2020................................................. 14a
Judgment, Opinion, U.S. Court of Appeals
for the Fourth Circuit, April 20,2020......... 16a
Order (Denial of Rehearing), U.S. District
Court for the Eastern District of Virginia,
October 16, 2019............................................. 20a

(vii)

Order, U.S. District Court for the Eastern
District of Virginia, September 9, 2019
(Doc.21)............................................................ 21a
Order of Conversion, U.S. Bankruptcy Court
for Eastern District of Virginia (Alexandria
Division), June 24, 2019 (Doc. 238)
23a
Order of Conversion, U.S. Bankruptcy Court
for Eastern District of Virginia (Alexandria
Division), June 13, 2019 (Doc. 225)
26a

(viii)
TABLE OF AUTHORITIES
Cases
Colo. River Water Conservation Dist. v. United
States, 424 U.S. 800 (1976)......................
In re Cont’l Airlines,
91 F.3d 553 (3d Cir. 1996)........................
In re 0ne20ne Communications, LLC.,
805 F.3d 428 (3d Cir. 2015).......................
In re Pac Lumber Co.
584 F.3d 229 (5th Cir. 2009)....................
In re UNR Indus, Inc., 20 F.3d 766
(7th Cir. 1974)...............................................
Kondrick v. Ryan, 540 U.S. 443 (2004)..............
Lexmark International, Inc. v. Static Control
Components, Inc., 134 S.Ct. 1377 (2014)
New Orleans Pub Serv. Inc. v. Council of City
of New Orleans, 491 U.S. 350 (1989).....
Nordhoff Invst, Inc. v. Zenith Elecs Corp,
258 F.3d 180 (3d Cir.2001)........................
Stern v. Marshall, 564 U.S. 46 (2011).................

14
11
11
12
12
18
13
14
11
13

United States Constitution
Art. Ill
Fourteenth Amendment
Statutory Provisions
United States Code
11U.S.C. §341..............
11U.S.C. §1107............
11U.S.C. §1108............
11 U.S.C. §1121(d).......
28 U.S.C. § 158(a)(2)....

4
4
4
4
5

28 U.S.C. §1257...
28U.S.C. §1334(c)

1
14

Federal Rules of Civil Procedure
59(e).........................................................

6

Federal Rules of Bankruptcy Procedure
9023 ........................................................................

6

Other Authorities
Ross E. Elgart, “Bankruptcy Appeals and Equitable
Mootness” IQ Cardozo L. Rev. 2311 (1988)
11
Brief of Bankruptcy Law Professors in Support of
Granting the Petition for Certiorari, Law Debentures
Trust Co. of N.Y. v. Charter Commc’ns, Inc. 133 S.Ct.
2021 (2013) (No. 12-847), 2013 WL 543337
15

1
JURISDICTION
The Fourth Circuit Court of Appeals issued its
opinion in Appeal No. 19-2319 on April 20, 2020.
Petitioner’s timely petition for panel and en banc
rehearing was denied on June 29, 2020. The Fourth
Circuit Court of Appeals issued its opinion in Appeal
No 19-2303 on April 20, 2020. Petitioner’s timely
petition for panel and en banc rehearing was denied
on June 29, 2020.
The jurisdiction of this Court is properly
invoked pursuant to 28 U.S.C. §1257.
OPINIONS BELOW
The opinions of the Fourth Circuit Court of
Appeals are reproduced in Appendices A & B. The
opinions are unreported.
CONSITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
Article III and the Fourteenth Amendment to
the United States Constitution

INTRODUCTION
The first question presented concerns the
denial of an exclusivity extension, and appeal of that
denial, and the subsequent dismissal of the appeal on
grounds of equitable mootness. The denial of an

2
exclusivity extension, interlocutory in nature, is the
only strictly interlocutory order that the Bankruptcy
Code recognizes as appealable without leave of the
appellate court,
The notorious difficulty of
determining “finality” is removed from the court by
statute. The policy grounds for this choice are not
difficult: the exclusionary period in Chapter 11 is
equal to the automatic stay as a pillar of allowing a
debtor a fresh start through a reorganization plan;
and the importance of settling an appeal timely for
such a critical bankruptcy building block.
The District Court here denied Debtor’s
emergency request for a stay pending appeal but sat
on the appeal for one year. In the meantime, the
Bankruptcy Court continued with the case and
eventually converted Debtor’s Chapter 11 petition to
a Chapter 7 liquidation upon motion by the United
States Trustee. That conversion was also appealed.
Before briefing or hearing the merits of that appeal,
the Trustee filed a preliminary motion to dismiss for
lack of jurisdiction. The Trustee asserted that the
Debtor had filed his appeal from the wrong order of
the Bankruptcy Court and had missed filling his
notice of appeal timely by some seven days. Debtor
vigorously opposed the dismissal on factual grounds
(the correct conversion order) and as a matter of
equity. The District Court expressed sympathy with
the equity argument but declared that the
jurisdictional matter raised by the Trustee bared
The District Court
considerations of equity.
dismissed the appeal. The Court of Appeals upheld
the dismissal for the reasons given by the lower court.

3

Conversion of Debtor’s Chapter 11 Petition was
the trigger event for the Court of Appeals invoking
equitable mootness, the subject of the first question
presented.
The second question presented for this Court
here is where the proper equitable-jurisdictional
divide was recognized below in the conversion
dispute. If the conversion appeal was wrongfullydismissed as a matter of lack of jurisdiction, then the
question of exclusivity extension could never be
denied as moot. Both Debtor’s appeals should then be
heard and decided on their merits.
STATEMENT OF THE CASE
1. Petitioner filed a voluntary petition under
Chapter 11 of the U.S. Bankruptcy Code, 11 U.S.C.
§§101 et seq. in the U.S. Bankruptcy Code for the
Eastern District of Virginia on September 7, 2017.
Petitioner timely filed his Schedules, Statement of
Financial Affairs, and other required documents.
2. Debtor was faced with four important (in
relative size) creditors: the IRS (the smallest by far);
two companies, a national bank and what Debtor has
referred to as a sophisticated loan-sharking private
operation run from the law firm representing him on
many matters, both whom had lent him money; and a
judgment creditor whose judgment was currently on
appeal to the Virginia Supreme Court. The private
creditors were all seriously contested — not overnight
sensations to justify some bankruptcy purpose, but

4
long-standing disputes going back eight years or
more.
3. Petitioner remained in possession and control
of his assets as DIP pursuant to sections 1107 and
1108 of the Code. No creditors’ committee was
appointed. Debtor timely attended his obligatory
§341 Creditors’ Meeting.
4. On November 15, 2017, the largest contested
creditor by far, Bank of America (“BoA”), filed a lift of
stay motion to enforce a security interest in a property
that Debtor did not own but controlled through a
limited partnership which was the real owner. Debtor
contested the motion and discovery schedules were
established. No discovery was forthcoming by BoA
despite many extensions of time and hearings and
promises to the Bankruptcy Court, as well as Debtor.
In June of 2018, BoA withdrew its motion for relief
from stay.
5. The exclusivity period for Debtor to file a plan
for reorganization initially set by statute (§1121(d))
was scheduled to expire on January 5, 2018. On
January 2, 2018, pursuant to the provisions of
§1121(d)(l) of the Code, Debtor filed a motion to
extend exclusivity for a period to end June 5, 2018.
The cause for the extension request was unresolved
contingencies with respect to the Roszels and BoA.
The motion was unopposed, and Debtor did not attend
the hearing. The Bankruptcy Court approved the
extension to June 5, 2018 by order entered February
2, 2008.

5

6. To ensure that exclusivity-related errors do not
thwart a Chapter 11 filing, as well no doubt to signal
clearly the recognition due exclusivity, the legislators
of the Code did three important things: (i) the Code
provides for extensions of the exclusivity period,
multiple extensions, if warranted, (ii) a total of 18
months is allowed for all extensions in a given case a relatively lengthy period for bankruptcy matters —
when warranted, and (iii) bankruptcy court rulings on
exclusivity, which rulings are interlocutory in nature,
are made automatically appealable, without the
necessity of seeking leave to appeal from the District
Court, the only interlocutory order so treated in the
Code. (See 28 U.S.C. 158 (a)(2).)
7. The Debtor filed a timely second motion on
June 2, 2018 to extend exclusivity a second time, for
four months, arguing that the same grounds which
previously justified the first extension not only
continued but had actually been exacerbated by the
actions of the two creditors involved. Debtor set the
first available return date of June 26, 2018 to hear the
motion. Debtor had no inkling of any opposition.
8. This time, two disputed creditors opposed the
motion - not the largest creditor, who represented
nearly two-thirds of the total claims in this case - one
filing an opposition the day prior to the opposition
deadline, one filing an untimely opposition. On June
26, a hearing was held in Bankruptcy Court on
Debtor was unable to attend
Debtor’s motion.
because of a prior legal commitment implicating his

6
fiduciary duty to clients. Ruling from the bench, the
Court denied Debtor’s motion because Debtor had not
established sufficient cause to extend further the
exclusivity period.
Moreover, the order finally
entered on July 16 specified that the exclusivity
period terminated on June 5, 2018, refusing to give
effect to the long-established bankruptcy practice of
tolling the deadline once an extension motion was
timely filed. Debtor believed that such tolling was
constitutionally required as part of normal due
process.
9. Debtor immediately on July 3 filed a motion to
reconsider the ruling from the bench. The motion
asked that Debtor be allowed for the first time to
testify at a new hearing, a true evidentiary hearing,
and, equally important, that Debtor be allowed to file
an exclusive plan of reorganization should the
extension be denied, in accordance with established
bankruptcy practice and constitutional due process.
The motion was accompanied by a 13-page sworn
Declaration by Debtor setting forth in summary form
the elements of “cause” for the extension as a proffer
of good faith. Debtor was present at the subsequent
hearing held on July 17, 2018 to reconsider but was
not permitted to testify. The Court denied the motion
on procedural grounds, ruling that Rule 59(e) of the
Federal Rules of Civil Procedure was not satisfied.
Bankruptcy Rule 9023 incorporates Fed. R. Civ. P.59
and a motion to reconsider is usually treated as a
motion to alter or amend under Rule 59(c). The Rule
does not state an express standard for the
consideration of such a motion, but the Fourth Circuit

7

has articulated three grounds for amending an earlier
order: (i) an intervening change in controlling law; (ii)
to account for new evidence not previously available;
or (iii) to correct a clear error of law or to prevent a
manifest injustice. The Court admitted from the
bench that if Debtor’s counsel had only requested a
continuance on June 26 to permit Debtor to testify,
she would have granted the request.1
10. The Debtor quickly appealed to the District
Court on the grounds that:
i) Debtor was wrongfully denied the opportunity
to present his version of the facts - genuine
evidence - underlying a determination of
cause. Facts as to intent, motivation, and
progress particularly under Debtor’s control.
An abuse of discretion is automatic when the
so-called discretion is not based upon probative
evidence but rather hyperbole by counsel and
attorneys “testifying.” Evidentiary rulings in
the absence of evidence are a sham and classic
abuse of discretion.
ii) Debtor was denied fundamental due process by
the refusal to recognize the tolling of the
exclusivity deadline after timely exercising the
right under the Code to ask for an extension of
exclusivity. Due process is not discretionary.
iii) Equity demanded that the Bankruptcy Court
prevent a manifest injustice.
1 The United States Trustee did not take a position with respect
to the second extension motion and did not substantively
participate in the exclusivity hearings.

8

11. Debtor also filed an emergency motion to stay
with the District Court. The Court curtly denied the
motion and denied as well an unopposed motion by
Debtor’s counsel for a slight extension of time to file
his appellate brief, which Debtor did manage to file
timely. Inter alia, the stay pending appeal was
refused on the grounds that no irreparable harm was
shown, that the likely creation of equitable mootness
was not irreparable under the circumstances, and
that the public interest was best served by the
efficiency and speed of the bankruptcy system.
12. The District Court refused or failed to hold a
hearing or rule on the appeal for one year.
13. The appeal was finally denied on September
26, 2019 (rehearing was denied October 18, 2019),
which order was timely appealed to the Court of
Appeals for the Fourth Circuit. The Court of Appeals
denied the appeal on the grounds of equitable
mootness.
14. Debtor timely filed a motion to request an en
banc hearing and for additional time to brief the
equitable mootness issue, inserted for the first time in
this matter sua sponte by the Appeals Court. The
Court of Appeals granted the extra time but refused
the motion for rehearing on June 29, 2020.
15. The United States Trustee (“UST”) filed a
motion to convert the Chapter 11 case to Chapter 7 on
May 9, 2019. The movant has the burden of proving

9
that cause existed for conversion. The UST gave as
ground for conversion several alleged failures by
Debtor as a DIP: Debtor had caused loss to the estate;
Debtor had engaged in “gross mismanagement of the
estate;” and Debtor had “failed to confirm a plan of
reorganization by statutory or Court-imposed
deadlines.” Both in his many papers and at the
hearing held on the conversion in June 2019, the UST
failed to allege or produce any evidence whatsoever
for Debtor’s alleged failure, which problem was
recognized by the Bankruptcy Court itself at the June
hearing but the lower Court determined itself to fill
in the blanks. In essence, the Court ruled that Debtor
had failed to provide a Disclosure Statement/
Reorganization Plan, that Debtor’s proposed sources
of income were too risky or speculative.
16. The order for conversion was executed on June
24, 2019, or so all the parties thought. An earlier
version issued June 13 also facially purported to be
the final order for conversion.
17. Debtor appealed the order of conversion using
the executed version of June 24, 2019 to calculate the
14-day period mandated by statute for filing a notice
of appeal. Before appellate briefs were filed (but well
after Debtor’s statement of issues and designation of
the record was filed), the UST filed a preliminary
motion for dismissal of the appeal, alleging that
Debtor had missed the statutory deadline of 14 days
for filing the notice of appeal because he had used the
wrong order.

10
18. Debtor would later testify to the District Court
that all the parties and the Bankruptcy Court itself
understood that the order of June 24, 2019 was to be
the operative order, replacing the initial order of June
13, which order was incomplete. Debtor gave several
facial reasons why the changes were substantive and
the new order a genuine replacement. The Debtor
also made the essentially equitable argument that the
intent of all the parties was clear and that due policy
grounds of preferring that appeals be heard on their
merits and that the small delay of 11 days between
the two orders was meaningless, certainly
nonprejudicial, as a practical matter.
19. The District Court held, however, that the
' earlier of the two orders was the operative order
because facially the difference between the two orders
was insignificant in substance. The District Court
expressed sympathy for Debtor’s equitable
presentation but noted that jurisdictional mandates
knew no equitable boundaries and concluded that the
appeal must be dismissed.
20. Debtor appealed to the Court of Appeals. On
April 20, 2020, the same day that the Court of Appeals
ruled on the exclusivity appeal, the Court of Appels
also ruled on this conversion appeal. The appeal was
dismissed with little fanfare. Debtor asked for en
banc participation, which request was denied on June
29, 2020.
REASONS TO GRANT THE PETITION

11
I. Equitable Mootness
In discussing the doctrine of equitable
mootness, Petitioner must acknowledge his debt to
the comprehensive concurring opinion of Circuit
Judge Cheryl Ann Krause in In re 0ne20ne
Communications, LLC., 805 F.3d 428 (3d Cir. 2015).
Judge Krause in turn no doubt owed a debt to thenjudge Alito’s strong, lengthy dissent in In re Cont’l
Airlines, 91 F.3d 553, 560 (3d Cir. 1996), followed by
another dissent in Nordhoff Invs. Inc., u. Zenith Elecs
Corp, 258 F.3d 180, 192 (3d Cir. 2001).2
The doctrine is not based on statute and is
entirely judicially created in recognition by appellate
courts that there is a point of “finality” in bankruptcy
beyond which — overwhelmingly in the context of
confirmed Chapter 11 reorganization plans - courts
are loathe to alter fundamental changes,
The
doctrine was first applied soon after the enactment of
the Bankruptcy Code in 1978. It is important to
distinguish the doctrine from true mootness in the
constitutional sense of lack of jurisdiction by an
Article III court where there is no “case or
Equitable mootness addresses a
controversy.”
situation where redress is possible but would be
inequitable to grant the appellant. Unwillingness to
alter an outcome, not inability to do so. And so, from
the beginning, the tension began with a party’s due
process right to challenge on appeal a judgment seen
as wrong.

2 See also Ross E. Elgart, “Bankruptcy Appeals and Equitable
Mootness, "19 Cardozo L. Rev. 2311 (1988).

12
While the doctrine is accepted by a majority of
circuits, detractors abound, and today courts seem to
be applying it not just inconsistently but more
narrowly than in the past. Thus, when Petitioner
refers to widespread disunity in the circuits, what is
meant is a huge variety of invocations, on the one
, hand,3 which cannot be easily rationalized. For a
time, court applied the doctrine simply in the face of
substantial inconvenience, a useful (and equitable)
escape hatch in lieu of unraveling complexity. The
doctrine was soon applied beyond the confines of
reorganization plans — for example, to settlement
agreements and orders authorizing the sale of debtqr
assets under Code §363 - although quite sparingly, it
should be noted. Yet, although courts spoke of
applying the doctrine “with a scalpel rather than an
axe,”4 many courts were dismissing appeals in the
simplest of bankruptcies. The tipping point and
perhaps the most deserving of equity was the
presence of “innocent” third parties prominent in the
transactions.
Nevertheless, the doctrine was originally
designed to be limited in scope and creatively applied,
specifically, in the most complex cases where limited
relief was not feasible and upsetting a reorganization
could cause substantial harm to many third parties.
But the goals of finality cannot erase the matching
3 Often enough, the doctrine is applied with judges clearly
holding their nose, so to speak. One circuit judge has “banned”
the term from the local lexicon insisting that the phrase
“prudential consideration” he used. See In re UNR Indus, Inc.,
20 F.3d 766, 769 (7th Cir. 1974; Judge Easterbrook).
4 In re Pac Lumber Co. 584 F.3d 229, 240 (5th Cir. 2009).

13
equivalent in a court’s duty to protect the integrity of
the legal process. It is time to review this equitable
mootness “experiment,” particularly in view of some
relatively recent Supreme Court decisions that
strongly suggest the doctrine cannot survive
constitutional scrutiny today.
In the absence of a constitutional or statutory
anchor declining to exercise jurisdiction over
bankruptcy appeals, we have instead the bedrock
principle that federal courts hear cases — and appeals
— within their statutory jurisdiction. See Colo. River
Water Conservation Dist. v. United States, 424 U.S.
800, 817 (1976). Nor is equitable mootness among the
handful of narrow and deeply rooted abstention
doctrines recognized by the Supreme Court, doctrines
always premised on alternative forms or mere
postponement. Equitable mootness, on the other
hand, is the end of the road. In Stern v. Marshall, 564
U.S. 462 (2011), this Court recognized the imperative
in the Bankruptcy world of appellate courts
exercising their jurisdiction and made the point that
an unconstitutional law cannot be saved simply
because it is convenient or efficient. In Lexmark
International, Inc. v. Static Control Components, Inc.,
134 S.Ct. 1377 (2014), this Court emphasized its
disapproval of doctrines that permit courts to decline
to decide claims on “prudential” rather than statutory
or constitutional grounds, admonishing that any such
doctrines conflict with the Court’s “recent
affirmation” of the principle that a federal court’s
obligation to hear and decide cases within its
jurisdiction is “virtually unflagging.” (Id. at 1386).

14
See also New Orleans Pub Serv. Inc. v. Council of City
of New Orleans, 491 U.S. 350, 358 (1989).
Moreover, a comprehensive review of the
Bankruptcy Code itself belies the doctrine. Such
abstention possibilities that relate to original
jurisdiction do not apply to appellate jurisdiction.
Furthermore, preventing equitable mootness does
not, in appropriate circumstances, prevent an
appellate court, after hearing the merits of the appeal,
from using its clear equitable authority to fashion a
remedy while still protecting third parties. And the
legislative history of 28 U.S.C. 1334(c) — establishing
both permissible and mandatory abstention discloses no mention of equitable mootness.
Additionally, the argument that those statutory
provisions that express a policy favoring the finality
of bankruptcy decisions somehow support equitable
mootness ignores the very rationale for the provisions
in the first place — necessity. Narrowly tailored
provisions for specific transactions cannot support a
broad doctrine such as equitable mootness. The
presumption is always against filling obvious gaps.
Finally, serious constitutional concerns require
appellate review by an Article III judge in
bankruptcy, and bankruptcy appellants whose
appeals are dismissed as equitably moot cannot be
said to have waived that right, even if waiver were
available.
The Petitioner is informed by wise counsel that
this Court has turned down writs of certiorari more
than one occasion. In recent years, the Court has
shown a willingness in Bankruptcy to elevate

15
constitutional principle over convenience and the
siren calls of finality and practicality. Perhaps the
extreme invocation in this case of the doctrine will
provide a tipping point,
Doctrines that are
fundamentally unconstitutional but are permitted to
hang out there to serve their practical masters have a
way of producing the extremity — the failure of this
case to meet the most basic requirements of equitable
mootness as historically understood is argued
immediately below - of this case. Left alone, it will
happen again. The time has come for this Court to
accept a challenge to equitable mootness.5
Were this Court somehow to save, de facto or
de jure, equitable mootness, the judicial “experiment”
would have to be repaired to its modest beginnings,
limited in scope and availability. An appellate court
would have to be quite specific and precise as to its
applicability to the facts of the case before it. Nothing
like the simple invocation in this instant matter,
where the Court of Appeals sua sponte, without any
suggestion by appellees and hence no adversarial
education, ordered dismissal under the doctrine.6
The Petitioner is aware of the scholarly
thinking that certiorari is most appropriate to cure
the conflicts in federal courts that are stark, or most
pronounced, that mere nuisance or uncertainties
5 See also Brief of Bankruptcy Law Professors in Support of
Granting the Petition for Certiorari, Law Debentures Trust Co.
ofNY. v. Charter Commc’ns, Inc. 133 S.Ct. 2021 (2013) (No. 12847), 2013 WL 543337.
6 It is true that the Court of Appeals permitted Petitioner a
limited opportunity to argue against equitable mootness in his
motion for rehearing en banc (denied).

16
should be given a chance to “percolate” through the
network and self-correct. But equitable mootness at
the very least is constitutionally suspect and what has
been called the “confused, disparate, and rebellious”
nature of equitable mootness precedent, with clearly
no end in sight, calls for the supervisory hammer of
this Court. No one should have any confidence in the
bet that the differences among the Third, Seventh,
and Ninth Circuits will resolve on their own anytime
soon.
In this case, the importance of delineating the
permissible contours of the doctrine is highlighted by
the utter lack of traditional justifications for
invocation:
(1) A reorganization plan was not involved. The
“trigger” event was the later conversion order,
itself appealed (see below).
(2) No serious unwinding of a complex situation
was required. Little had been done under
Chapter 7 that could not be easily rolled back.
Debtor in fact provided a clear and simple
roadmap in his appeal papers.
(3) There was no third-party injury whatsoever.
(4) Petitioner had duly sought a stay below at the
District Court.7
(5) The particular merits of the Petitioner’s
if not
original appeal were
strong,
overwhelming, on their own.
This last point leads to perhaps the most
shocking element of this case, the fact that the
7 Petitioner could not ask for a stay at the Court of Appeals
because the District Court failed to announce its opinion.

17
District Court sat on the appeal for one year. As we
have seen, the statutory basis for the interlocutory
appeal was premised on the need to resolve this
Debtor pursued an
‘building block’ quickly,
emergency stay, which event speaks for itself.
Ironically, one of the grounds given for stay was the
possibility of equitable mootness rearing its head
down the road. The District Court denied a consent
motion for a brief extension of time to prepare the
Debtor’s appellate brief. The Court ignored numerous
Under the
telephone calls seeking status,
circumstances, such a delay is unconscionable. The
invocation of equitable mootness after a year’s delay
and because of a subsequent event occurring during
that delay is an astounding unfairness to Petitioner.
While certiorari may not exist simply for the
correction of an injustice, a doctrine that permits such
a result needs, at a minimum, reformation.
II. Equity and Jurisdiction
The second question presented is shorter but as
intense as the first. Also raised is the issue of whether
the Petitioner in effect was denied a constitutional
appeal on the false premise that the appellate court
did not have jurisdiction.
The Petitioner need not before this Court argue
the unassailable right to an appeal of a final order of
the Bankruptcy Court. As we have seen, the appeal
to what appeared to be the first order of the
Bankruptcy Court on conversion was timely filed by
Debtor. The question is, in the first instance, whether
the order relied upon by the Debtor was, indeed, the

18
proper order for appeal. The United States Trustee
on a preliminary motion to dismiss prior to hearing
the merits of conversion argued that an earlier order
on conversion dated eleven days prior to the motion
relied upon by the Debtor was the operable motion. If
so, the Trustee continued, the appellate court did not
have jurisdiction as the statutory deadline for notice
of appeal had expired prior to Debtor’s actual notice.
Petitioner (Debtor) argued that the second
order had superseded the first order and that on legal
and equitable grounds the appeal should proceed. As
previously noted, the District Court expressed
sympathy for Debtor’s equitable position but said that
it was nevertheless bound by the jurisdictional
provisions of the Code. Although Debtor cited in his
opposition to the motion by the Trustee the highly
clarifying opinion of Justice Ginsberg in Kondrich v.
Ryan, 540 U.S. 443 (2004) for the proposition that
appeal deadlines had to be carefully sorted into
jurisdictional and claim-processing baskets, Debtor’s
equitable argument related primarily to the Trustee’s
preference for the first order over the second.
Fleshing out the Statement of the Case provided
above, the arguments for the second order were,
briefly as follows:
a) All the parties and the Bankruptcy Court acted
in word and in deed, as if the second order was
to replace the first;
b) The second order had substantive changes to
the first, including a revised timetable; and
c) This Bankruptcy Court’s clear practice and
intent here, as evidenced by the wording of the
two orders, indicated replacement.

19
As a further equitable matter, Debtor pointed to only
eleven days difference between the two orders, with
no legal prejudice to any party caused by accepting
the second order.
The District Court ruled that the case law was
clear that the difference between the two orders, on
their face, was legally insignificant and the second
order was simply an iteration of the first order. The
Court also said that it was sympathetic to the equities
expressed by Debtor but its hands were tied by the
jurisdictional deadlines. With respect to the Court, it
was applying the equitable arguments to the wrong
column of the ledger. The jurisdictional deadline
concerned the days for filing the notice of appeal days calculated from the date of the operative order.
Debtor’s argument concerned the proper order itself
and made a compelling case (so agreed the Court) for
the equitable treatment of allowing Debtor to use the
‘second’ order as the starting point for computing the
jurisdictional deadline.
Petitioner is acutely aware, as stated earlier,
that certiorari is not for redressing every error below
and with respect to all mistakes of federal questions
and procedures. What we have here is a federal
system of bankruptcy, in fact a constitutional right, in
which Chapter 11 is created to give a qualifying
debtor the right to a fresh start pursuant to a
Reorganization Plan (as opposed to a liquidation
under Chapter 7). Chapter 11 is not a walk in the
park, for debtors or their attorneys. Appeals are a
critical part of the system to ensure compliance with
the Code and fairness in the process. To emphasize
the necessity for reasonable compliance and for

20
fairness, all Bankruptcy judges and appellate courts
sitting in bankruptcy appeals sit in equity.
Conversion is the end of Chapter 11. Therefore, an
appeal on a conversion ruling is particularly
important to the parties and the process, and
appellate Courts should be particularly concerned to
see that the merits on appeal are reached - and the
whenever
constitutional mandate played out
possible. The statutory basis for jurisdiction is not
The equitable
open to equitable supervision,
supervision of this Court is available to ensure that
all the lower appellate courts take equitable duties
seriously and, in the rush to push out bankruptcy
cases from crowded dockets, apply equity where
possible to support the further constitutional
mandate supporting appeals on the merits.
This case is sufficiently troubling to exercise
this Court’s supervisory function to see that Courts
below are at least pointed in the right direction.
CONCLUSION
The petition for a writ of certiorari should be
granted.
Respectfully Submitted,
Philip Jay Fetner, Pro Se
Petitioner
8080 Enon Church Road
The Plains, Virginia 20198
(540) 222.9693
pj ayfetner@aol. com

